                                                                 Issue Date
                                                                        May 15, 2012
                                                                 Audit Report Number
                                                                        2012-FW-1007




TO:         Charles S. Coulter
            Deputy Assistant Secretary for Single-Family Housing, HU

            //signed//
FROM:       Gerald R. Kirkland
            Regional Inspector General for Audit, Fort Worth Region, 6AGA

SUBJECT: SWBC Mortgage Corporation Did Not Follow HUD-FHA Underwriting
          Requirements in 1 and Had Minor Deficiencies in 3 of 10 Single-Family Loans


                                   HIGHLIGHTS

 What We Audited and Why

             We audited SWBC Mortgage Corporation, a Federal Housing Administration
             (FHA) direct endorsement lender in San Antonio, TX. We selected the lender for
             audit because as of September 30, 2011, it had 25 seriously delinquent loans. Our
             objective was to determine whether the lender originated single-family home
             loans in accordance with U. S. Department of Housing and Urban Development
             (HUD) and FHA requirements for loans with amortization dates between
             October 1, 2009, and September 30, 2011.


 What We Found

             The lender did not follow HUD-FHA underwriting requirements for 1 and had
             minor deficiencies in 3 of 10 loans reviewed. These deficiencies occurred
             because the lender’s internal controls needed improvement. As a result, the
             lender originated one ineligible loan totaling $176,739 that resulted in an
             increased risk of loss of at least $115,654 to FHA’s Mutual Mortgage Insurance
             Fund. Additionally, while the minor deficiencies did not affect loan approval, the
             lender placed itself at risk of originating additional ineligible loans.
    What We Recommend

                 We recommend that the Deputy Assistant Secretary for Single Family Housing
                 require the lender to indemnify HUD for the ineligible FHA loan with an
                 estimated potential loss of more than $115,000 1 and implement policies and
                 procedures to strengthen its internal controls.

                 For each recommendation without a management decision, please respond and
                 provide status reports in accordance with HUD Handbook 2000.06, REV-3.
                 Please furnish us copies of any correspondence or directives issued because of the
                 audit.

    Auditee’s Response


                 We provided our draft report to SWBC Mortgage Corporation on April 24, 2012,
                 and held the exit conference on April 30, 2012. We requested and received its
                 written response on May 8, 2012. SWBC Mortgage Corporation generally
                 disagreed with our conclusions and provided documentation to support its
                 position. We reviewed the documentation and made changes to the report where
                 appropriate.

                 The complete text of the auditee’s response, along with our evaluation of that
                 response can be found in appendix B of this report. The additional documentation
                 provided to support the auditee’s position is available upon request.




1
     The amount is based on the estimated percentage of loss of 66 percent that HUD would incur when the FHA
     property is foreclosed upon and resold as supported by the HUD Single Family Acquired Asset Management
     System’s case management profit and loss by acquisition as of December 2011.


                                                       2
                           TABLE OF CONTENTS

Background and Objective                                                           4

Results of Audit
      Finding: SWBC Mortgage Corporation Did Not Follow HUD-FHA                    6
      Underwriting Requirements in 1 and Had Minor Deficiencies in 3 of 10 Loans
      Reviewed

Scope and Methodology                                                              10

Internal Controls                                                                  11

Appendixes
   A. Schedule of Funds To Be Put to Better Use                                    13
   B. Auditee Comments and OIG’s Evaluation                                        14
   C. Case Narrative                                                               16




                                            3
                        BACKGROUND AND OBJECTIVES

SWBC Mortgage Corporation is headquartered at 9311 San Pedro, San Antonio, TX. It has 60
approved and active branch offices. It is a nonsupervised direct endorsement lender and was
approved by the U.S. Department of Housing and Urban Development (HUD) to originate Federal
Housing Administration (FHA)-approved mortgage loans on March 15, 1989.

HUD’s direct endorsement program simplified the process for obtaining FHA mortgage insurance
by allowing lenders to underwrite and close the mortgage loan without prior HUD review or
approval. Lenders are responsible for complying with all applicable HUD regulations and are
required to evaluate the borrower’s ability and willingness to repay the mortgage debt. Lenders are
protected against default by FHA’s Mutual Mortgage Insurance Fund, which is sustained by
borrower premiums. FHA’s mortgage insurance programs help low- and moderate-income families
become homeowners by lowering some of the costs of their mortgage loans. FHA mortgage
insurance also encourages lenders to approve mortgages for otherwise creditworthy borrowers and
projects that might not be able to meet conventional underwriting requirements by protecting the
lender against default.2

According to HUD’s Neighborhood Watch system,3 SWBC Mortgage originated 3,560 loans in
calendar year 2010 with original mortgage amounts totaling more than $541 million. Further, as of
October 31, 2011, SWBC Mortgage had originated 2,628 loans for the calendar year with original
mortgage amounts totaling more than $388 million. Its default rate was 1.3 percent compared to an
average default rate for all FHA loans in the San Antonio HUD office jurisdiction of 1.23 percent.

All FHA lenders must follow all applicable statutes, regulations, and HUD’s written instructions,
including program handbooks and mortgagee letters. Specifically, lenders must follow HUD
Handbook 4155.1, “Mortgage Credit Analysis for Mortgage Insurance on One-to-Four-Unit
Mortgage Loans,” when underwriting FHA loans. The lender is responsible for eliciting a complete
picture of the borrower’s financial situation, source of funds for the transaction, and intended use of
the property. Its decision to approve the loan must be documented, supported, and verifiable.

Lenders may use an automated underwriting system such as Desktop Underwriter to underwrite
FHA loans. Desktop Underwriter works in conjunction with FHA’s TOTAL (Technology Open to
Approved Lenders) Mortgage Scorecard. HUD published a user guide to assist lenders using an
automated underwriting system in conjunction with TOTAL Mortgage Scorecard. FHA’s TOTAL
Mortgage Scorecard evaluates the overall creditworthiness of the applicants based on a number of
credit variables and, when combined with the functionalities of the automated underwriting system,
indicates a recommended level of underwriting and documentation to determine a loan’s eligibility
for insurance by FHA. Taken together, TOTAL Mortgage Scorecard and the automated

2
    HUD defines a default as the inability to make timely mortgage payments or otherwise comply with mortgage
    terms. A loan is considered in default when no payment has been made 30 days after the due date. Once a loan
    is in default, the lender can exercise legal rights defined in the contract to begin foreclosure proceedings.
3
    Neighborhood Watch is Web-based software that displays loan performance data for FHA-insured single-family
    loan information. The system is designed to highlight exceptions so that potential problems are readily
    identifiable.


                                                       4
underwriting system either conclude that the borrower’s credit and capacity for repayment of the
mortgage are acceptable or refer the loan application to a direct endorsement underwriter for further
consideration and review. Each automated underwriting system using FHA’s TOTAL Mortgage
Scorecard produces a document that provides feedback to the insurance lender. Desktop
Underwriter’s feedback document is called the “Desktop Underwriter Findings”. Desktop
Underwriter Findings summarize an overall underwriting recommendation and eligibility of a loan
and list certain steps necessary for the lender to complete the processing of the loan case file. The
Desktop Underwriter Findings alert the lender to potential problems with occupancy, property
valuation, or social security number data that may warrant further investigation. SWBC Mortgage
used Desktop Underwriter to underwrite the 10 loans reviewed.

Our objective was to determine whether the lender originated single-family home loans in
accordance with HUD and FHA requirements for loans with beginning amortization dates between
October 1, 2009, and September 30, 2011.




                                                  5
                                   RESULTS OF AUDIT

Finding: SWBC Mortgage Corporation Did Not Follow HUD-FHA
         Underwriting Requirements in 1 and Had Minor Deficiencies
         in 3 of 10 Loans Reviewed
The lender did not follow HUD-FHA underwriting requirements in 1 of 10 loans reviewed.
Specifically, it did not include all of the borrower’s debt when it qualified him for the FHA-insured
loan. Further, three loans contained minor deficiencies that did not affect loan approval. These
deficiencies occurred because the lender’s internal controls needed improvement. As a result, the
lender originated one ineligible loan totaling $176,739 that resulted in an increased risk of loss of an
estimated $115,654 to the insurance fund. In addition, while the minor deficiencies did not affect
loan approval, the lender placed itself at risk of originating additional ineligible loans.


    SWBC Mortgage Did Not
    Include All Debt When
    Qualifying One Borrower

                For one loan, 4 the lender did not include all of the borrower’s debt when it
                qualified him for the FHA loan. The borrower’s divorce decree, dated 6 months
                before closing, identified six accounts with balances totaling $21,800 that were
                not on the credit report or the Desktop Underwriter Findings and were not
                considered by the automated underwriting system. HUD’s TOTAL Mortgage
                Scorecard User Guide states that

                    when a debt or obligation is revealed during the application process that
                    was not listed on the loan application and/or credit report and was not
                    considered by the automated underwriting system, the lender must a)
                    verify the actual monthly payment amount; b) include the monthly
                    payment amount and re-submit the loan if the liability is greater than $100
                    per month; and c) determine that any funds borrowed were not/will not be
                    used for the homebuyer’s cash investment into the transaction.

                The loan file did not contain evidence that the lender resubmitted the loan. The
                lender agreed that it did not include all of the borrower’s debt when it qualified
                him for the FHA loan. As a result, the loan was ineligible for FHA insurance.




4
     FHA case number 495-8477110


                                                   6
    4 of 10 Loans Had Minor
    Documentation Deficiencies

                  Four 5 of the ten loans reviewed contained minor documentation deficiencies.
                  Specifically, the Desktop Underwriter Findings instructed the lender to obtain the
                  most recent pay stubs and bank statements and verify the borrower’s assets.
                  However, the lender did not obtain the most recent pay stubs for three loans, and
                  three loans did not contain the most recent bank statements. None of these
                  deficiencies affected loan approval because (1) the income used to qualify the
                  borrower was supported by documents in the loan file, (2) assets were supported
                  by older bank statements, or (3) HUD’s TOTAL Mortgage Scorecard emulator
                  approved the loan without any reserves. Table 1 identifies the loans and their
                  documentation deficiencies.

                         Table 1: Summary of minor loan deficiencies
                                                Pay stubs were       Bank statements
                                   FHA case       not the most       were not the most
                        Count       number           recent               recent
                          1     495-8477110             X                   X
                          2     495-8537867             X
                          3     495-8612321                                 X
                          4     495-8711651             X                   X
                                Totals                  3                    3


    SWBC Mortgage Did Not
    Manually Underwrite One
    Loan as Required


                  HUD’s TOTAL Mortgage Scorecard User Guide requires lenders to manually
                  underwrite loans when the borrower’s credit report reveals disputed credit
                  accounts. One loan 6 contained five disputed collection accounts, which required
                  a manual underwrite. The lender did not reply to our inquiries regarding its
                  failure to manually underwrite the loan. For manually underwritten loans, FHA
                  requires the lender to compute two ratios: (1) mortgage payment expense to
                  effective income and (2) total fixed payment to effective income. 7 The first ratio
                  considers the total mortgage payment to the borrower’s income, while the second
                  ratio considers all of the borrower’s debts, including the mortgage payment, to the
                  borrower’s income. When a loan is manually underwritten, the qualifying ratios
                  generally should not exceed 31 and 43 percent, respectively, without acceptable
                  compensating factors. When a borrower’s qualifying ratios exceed the FHA-

5
     One of the four loans (FHA case number 495-8477110) was discussed earlier in the finding and was ineligible.
6
     FHA case number 495-8537867
7
     HUD Handbook 4155, paragraph 4.F.2


                                                        7
                  established limits, FHA requires the underwriter to support loan approval with
                  compensating factors and support the factors with documentation. 8 Desktop
                  Underwriter approved the loan with qualifying ratios of 42 and 55 percent, which
                  exceeded the FHA benchmarks. The borrower’s loan file contained
                  documentation evidencing substantial cash reserves, which are acceptable as a
                  compensating factor. 9 Therefore, the loan was eligible, making the lender’s
                  failure to manually underwrite the loan a minor deficiency.

     SWBC Mortgage’s Internal
     Controls Needed Improvement

                  All of the deficiencies identified during our review occurred because the lender’s
                  internal controls needed improvement. The lender did not always follow HUD’s
                  TOTAL Mortgage Scorecard User Guide and the Desktop Underwriter Findings
                  instructions. In addition, its quality control process needed strengthening because
                  (1) its quality control contractor reviewed but did not detect the ineligible loan 10
                  and (2) a quality control recommendation on another loan 11 was not followed.
                  Lenders must design quality control programs that meet the following overriding
                  goals of quality control: “assure compliance with FHA’s and the mortgagee’s
                  own origination or servicing requirements throughout its operations, protect the
                  mortgagee and FHA from unacceptable risk, guard against errors, omissions and
                  fraud, and assure swift and appropriate corrective action.” 12 Since the lender did
                  not always follow HUD’s TOTAL Mortgage Scorecard User Guide, the Desktop
                  Underwriter Findings instructions, and its quality controls, its internal controls
                  were weakened, which allowed deficiencies to occur.


     Conclusion


                  The lender did not follow HUD-FHA underwriting requirements in 1 of 10 loans
                  reviewed. Three loans contained minor documentation deficiencies that did not
                  affect loan approval. Additionally, the lender did not provide documentation to
                  show that it followed a recommendation from its quality control contractor. These
                  deficiencies occurred because the lender’s internal controls needed improvement.
                  As a result, the lender originated one ineligible loan totaling $176,739 that resulted
                  in an increased risk of loss of an estimated $115,654 to the insurance fund. Further,
                  while the minor deficiencies did not affect loan approval, the lender placed itself at
                  risk of originating additional ineligible loans.


8
      HUD Handbook 4155.1, paragraph 4.F.2.a through 4.F.3.b
9
      HUD Handbook 4155.1, paragraph 4.F.3.b, lists acceptable compensating factors.
10
      FHA case number 495-8477110
11
      FHA case number 495-8746037
12
      HUD Handbook 4060.1, REV-2, “Mortgagee Approval Handbook,” paragraph 7-2


                                                        8
     Recommendations

                 We recommend that the Deputy Assistant Secretary for Single Family Housing
                 require the lender to

                 1A. Indemnify HUD for one insured loan13 with an unpaid principal balance of
                     $175,233, thereby putting an estimated $115,654 to better use based on the
                     FHA insurance fund average loss rate of 66 percent of the unpaid principal
                     balance.

                 1B. Implement policies and procedures to ensure that it will follow HUD’s
                     TOTAL Mortgage Scorecard User Guide and that all Desktop Underwriter
                     Findings instructions are followed.

                 1C. Implement policies and procedures to ensure that all quality control contractor
                     recommendations are implemented.




13
      FHA case number 495-8477110


                                                  9
                              SCOPE AND METHODOLOGY

We conducted the audit between November 2011 and April 2012 at the lender’s headquarters office
in San Antonio, TX, and the HUD OIG San Antonio, TX, and Fort Worth, TX, field offices. We
selected the lender for audit because, according to HUD’s Neighborhood Watch system, between
October 1, 2009, and September 30, 2011, it had 25 seriously delinquent loans out of 1,930
originated in the San Antonio, TX, office jurisdiction. Our objective was to determine whether
the lender originated single-family home loans in accordance with HUD and FHA requirements
for loans with beginning amortization dates between October 1, 2009, and September 30, 2011.

To accomplish our objective, we

     •   Reviewed applicable HUD regulations, requirements, and mortgagee letters;
     •   Reviewed reports and information on HUD’s Neighborhood Watch system;
     •   Reviewed the lender’s quality control contract and written quality control plan;
     •   Selected all 25 seriously delinquent loans for review;
     •   Obtained all 25 seriously delinquent electronic loan files and reviewed 10 files beginning
         with the lowest number of payments before first default;
     •   Reviewed quality control reports for five loans that defaulted in six payments or fewer; 14
     •   Reviewed the lender’s policies and procedures; and
     •   Conducted interviews with applicable HUD staff, lender staff, and borrowers that were
         available.

After we completed 10 file reviews, our results indicated that only 1 loan was ineligible. As a
result, we discontinued testing. We did not evaluate the reliability of HUD’s Neighborhood Watch
system because we were not auditing the system and used it only to select an auditee and identify
which loans to review. During the file review, we compared instructions in the Desktop
Underwriter Findings to the documents in the file to test whether the Desktop Underwriter Findings
instructions were followed. We also compared our file review results to the quality control reviews
that were completed on loans that defaulted in six payments or fewer.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




14
     HUD Handbook 4060.1, REV-2, paragraph 7-6(D), requires lenders to perform a quality control review of all
     loans that default in six payments or fewer. Our review scope included five loans that fell into that category.


                                                          10
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
               We determined that the following internal controls were relevant to our audit
               objectives:

               •   Policies and procedures intended to ensure that FHA-insured loans are properly
                   originated and underwritten,
               •   Safeguarding FHA-insured mortgages from high-risk exposure, and
               •   Policies and procedures intended to ensure that the quality control program is an
                   effective tool in reducing underwriting errors and noncompliance.

               We assessed the relevant controls identified above.

               A deficiency in internal controls exists when the design or operation of a control
               does not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                11
Significant Deficiency


            Based on our review, we believe that the following item is a significant deficiency:

            •   The lender’s internal controls needed improvement because it did not always
                follow HUD’s TOTAL Mortgage Scorecard User Guide, Desktop Underwriter
                Findings instructions, or quality control recommendations (finding).




                                             12
                                     APPENDIXES

Appendix A

       SCHEDULE OF FUNDS TO BE PUT TO BETTER USE

                           Recommendation       Funds to be put to
                               number                better use 1/

                                  1A                    $115,654




1/ Recommendations that funds be put to better use are estimates of amounts that could be used
   more efficiently if an Office of Inspector General (OIG) recommendation is implemented.
   These amounts include reductions in outlays, deobligation of funds, withdrawal of interest,
   costs not incurred by implementing recommended improvements, avoidance of unnecessary
   expenditures noted in preaward reviews, and any other savings that are specifically
   identified. In this instance, if HUD implements our recommendation to indemnify the loan
   that was not originated in accordance with FHA requirements, it will reduce FHA’s risk of
   loss to the insurance fund. The amount above reflects HUD’s calculation that FHA loses an
   average of about 66 percent of the claim amount when it sells a foreclosed-upon property.




                                              13
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation                                 Auditee Comments

                                  SWBC Mortgage
                                  9311 San Pedro | Suite 100 | San Antonio, Texas 78216
                                  210-826-6999 | 1-800-460-6990 | Fax: 210-482-2404 | www.swbcmortgage.com




             May 8, 2012

             VIA UPS MAIL AND EMAIL, gkirkland@hudoig.gov

             Mr. Gerald Kirkland
             Regional Inspector General for Audit
             Office of Inspector General, Region VI
             819 Taylor Street, Suite 13A09
             Fort Worth, TX 76102

             Re:        SWBC Mortgage Corporation Did Not Follow HUD-FHA Underwriting Requirements
                        in 1 and Had Minor Deficiencies in 7 of 10 Single-Family Loans

             Dear Mr. Kirkland:

             Thank you for the opportunity to respond to the findings in the above-referenced draft audit report. SWBC
             Mortgage Corporation (“SWBC Mortgage”) is a full-service mortgage banking firm, which has provided
             mortgage banking services for more than 22 years. SWBC Mortgage credits our superior performance and
             growth to our highly experienced management and support team members, many of which have been with
             SWBC Mortgage for more than 15 years.

             SWBC Mortgage welcomes this opportunity to work with the Office of Inspector General and remains
             committed to making high quality loans to serve our customers and strengthen our partnership with FHA
             and investors. SWBC Mortgage has diligently focused on quality control measures to ensure compliance
             with guarantor, insurer, and investor requirements. SWBC Mortgage takes great pride in the fact that
             HUD’s Neighborhood Watch system shows that SWBC Mortgage’s default rate in the San Antonio
             jurisdiction was 1.33% on September 30, 2011, which fell to 1.02% by December 31, 2011, and was .71%
             on March 31, 2012. Additionally, the Compare Ratio during this time went from 108% on September 30,
             2011, to 77% on December 31, 2011, and was 65% as of March 31, 2012. Consequently, SWBC Mortgage
             has improved since the audit period of this review (October 1, 2009 to September 30, 2011), which is
             reflective of the additional oversight and controls that were put in place prior to this audit.

             The audit report (the “Report”) indicates SWBC Mortgage was selected for audit because it had 25
             seriously delinquent loans. According to the HUD Neighborhood Watch system, the number of seriously
             delinquent loans in the San Antonio jurisdiction is 12 as of March 31, 2012. SWBC Mortgage has always
             endeavored to originate mortgage loans in accordance with FHA policies and procedures. As industry data
             became available, SWBC Mortgage increased usage of tools and resources that indicated default risk and
             continued to assess the internal control processes and implement risk mitigation measures through proper
             controls.




                                                        14
            FINDING

            SWBC MORTGAGE DID NOT INCLUDE ALL DEBT WHEN QUALIFYING ONE BORROWER

            For one loan, the lender did not include all of the borrower’s debt when it qualified him for the FHA loan.
            The borrower's divorce decree, dated six months before closing, identified six accounts with balances
            totaling $21,800 that were not on the credit report or the Desktop Underwriter Findings and were not
            considered by the automated underwriting system. HUD’s TOTAL Mortgage Scorecard User Guide states
            that when a debt or obligation is revealed during the application process that was not listed on the loan
            application and/or credit report and was not considered by the automated underwriting system, the lender
            must a) verify the actual monthly payment amount; b) include the monthly payment amount and re-submit
            the loan if the liability is greater than $100 per month; and c) determine that any funds borrowed were
            not/will not be used for the homebuyer’s cash investment into the transaction. The loan file did not contain
            evidence that the lender resubmitted the loan. The lender agreed that it did not include all of the borrower's
            debt when it qualified him for the FHA loan. As a result, the loan was ineligible for FHA insurance.

            Response to the Finding: SWBC Mortgage takes its underwriting responsibilities very seriously and
            would never knowingly approve a loan to an unqualified borrower. In this case, the borrower’s divorce
            decree was dated six months before closing; however, a current credit report did not include the accounts
            listed in the divorce decree. The divorce decree included the payment of debts for which he was not legally
            obligated by the creditors. Also, the accounts listed in the divorce decree did not identify account numbers
            so it was not possible to compare the accounts in the divorce decree with the accounts listed on the credit
Comment 1   report. SWBC Mortgage agrees that the underwriter should have inquired further; however, since the
            borrower was not legally obligated to pay, the typical practice of reviewing the debt did not cover this type
            of issue. Further, it would have been difficult to obtain current payment balances on debts from creditors
            when the borrower was not on the accounts. This is a highly unusual situation and SWBC Mortgage has
            improved processes to give specific instructions to follow total findings. Since early 2011, a pre-close
            review process has been in place to detect underwriting and processing deficiencies prior to the loan
            closing. The deficiencies should improve with the controls now in place. As noted by the OIG
            representative, this is not indicative of SWBC Mortgage’s underwriting practices as evidenced by the fact
            that no other major findings were noted and the representative felt it was not necessary to review the
            remaining 15 of the 25 loans selected for the audit.

            FINDING

            8 OF 10 LOANS HAD MINOR DOCUMENTATION DEFICIENCIES

            Eight of the ten loans reviewed contained minor documentation deficiencies. Specifically, the Desktop
            Underwriter Findings instructed the lender to obtain the most recent pay stubs and bank statements and
            verify the borrower’s assets. However, the lender did not obtain the most recent pay stubs for seven loans,
            and five loans did not contain the most recent bank statements. None of these deficiencies affected loan
            approval because (I) the income used to qualify the borrower was supported by documents in the loan file,
            (2) assets were supported by older bank statements, or (3) HUD's TOTAL Mortgage Scorecard emulator
            approved the loan without any reserves.




                                                      15
            Table 1 identifies the loans and their documentation deficiencies.

                                         Table 1: Summary of Minor Loan Deficiencies

                            Count        FHA case number        Pay stubs were      Bank statements
                                                                 not the most        were not the
                                                                    recent            most recent
                               1           495-8477110                 X                   X
                               2           495-8840058                 X
                               3           495-8746037                 X                    X
                               4           495-7519279                 X                    X
                               5           495-8537867                 X
                               6           495-8612321                                      X
                               7           495-8666806                 X
                               8           495-8711651                 X                    X
                                         Totals                        7                    5


            Response to the Finding: SWBC Mortgage respectfully disagrees with the finding on four of the eight
            loans cited with minor deficiencies. Per HUD Handbook 4155.1 1.B.2.a - General Mortgage Credit
            Analysis Documents, “Lenders must obtain the most recent documents required to perform the mortgage
            credit analysis. “Most Recent” refers to the most recent documents available at the time the loan application
            is made.” The below chart indicates SWBC Mortgage's response to each loan.

                            Count        FHA case number        Pay stubs were      Bank statements
                                                                 not the most        were not the
                                                                    recent            most recent
                               1            495-8477110             Agree               Agree
                               2            495-8840058            Disagree
                               3            495-8746037            Disagree             Disagree
                               4            495-7519279            Disagree             Disagree
                               5            495-8537867             Agree
                               6            495-8612321                                   Agree
                               7            495-8666806             Disagree
                               8            495-8711651              Agree                Agree


            495-8840058 (xxxxxx) - The application date for this loan was 07/05/2010 and the most recent pay stub in
Comment 2   the file was dated 06/25/10. Based on the frequency the borrower is paid, the 06/25/10 pay stub was the
            most recent at the time of application.

            495-8746037 (xxxxxxxx) - The application date for this loan was 04/05/10 and the most recent pay stub
            was dated 04/01/10. Based on the frequency the borrower is paid, this was the most recent pay stub
            available at the time of application. The bank statement provided covered a period of 02/16/10 to
            031/5/10. Again, based on the application date of 04/05/10, this would be the most recent statement
            available.




                                                      16
            495-8519279 (xxxxxxxx) - The application date for this loan was 09/17/10 and the most recent pay stub
            in the file was dated 10/15/10. This is within HUD's documentation requirements. The bank statement
            provided was dated 09/02/09 and a statement from the borrower's retirement account was dated 09/16/09.
            Based on the application date of 09/17/10, these would be the most recent statements available at the time
            of application.

            495-8666806 (xxxxx) - The application date was 02/11/10, the pay stub provided by the borrower was
            dated 02/24/10 and the pay stub provided by the co-borrower was dated 02/10/10. The file contains an
            earlier paystub provided by the borrower, but based on the application date it would not have satisfied
            HUD's documentation requirements. This is why we have a more recent pay stub in the file for the
            borrower compared to the documentation provided by the co-borrower.

            On the four remaining files, SWBC Mortgage concurs with the findings concerning the age of the
            documents. We agree with the OIG representative's statement that none of the deficiencies affected the
            loan approval. The income and assets were supported by other documentation in the loans files such as tax
            returns, tax transcripts, W-2s and verbal verifications of employment. SWBC Mortgage strictly enforces
            our underwriting process and as previously mentioned the pre-closing process closely monitors dates as an
            additional control that may not have been in place during the audit period.

            FINDING

            SWBC MORTGAGE DID NOT MANUALLY UNDERWRITE ONE LOAN AS REQUIRED

            HUD’s TOTAL Mortgage Scorecard User Guide requires lenders to manually underwrite loans when the
            borrower’s credit report reveals disputed credit accounts. One loan contained five disputed collection
            accounts, which required a manual underwrite. The lender did not reply to our inquiries regarding its failure
            to manually underwrite the loan. For manually underwritten loans, FHA requires the lender to compute two
            ratios: (1) mortgage payment expense to effective income and (2) total fixed payment to effective income.
            The first ratio considers the total mortgage payment to the borrower's income, while the second ratio
            considers all of the borrower's debts, including the mortgage payment, to the borrower's income. When a
            loan is manually underwritten, the qualifying ratios generally should not exceed 31 and 43 percent,
            respectively, without acceptable compensating factors. When a borrower's qualifying ratios exceed the
            FHA established limits, FHA requires the underwriter to support loan approval with compensating factors
            and support the factors with documentation. Desktop Underwriter approved the loan with qualifying ratios
            of 42 and 55 percent, which exceeded the FHA benchmarks. The borrower’s loan file contained
            documentation evidencing substantial cash reserves, which are acceptable as a compensating factor.
            Therefore, the loan was eligible, making the lender's failure to manually underwrite the loan a minor
            deficiency.

            Response to Finding: On February 21, 2012, SWBC Mortgage received an email message from the
            auditor stating that    “this to let you know that we are “surveying out”           of SWBC Mortgage
            Corporation. This means that our survey work did not produce results to justify a full audit. Therefore, we
Comment 3   are issuing an audit report based on our review of 10 files.” Consequently, SWBC Mortgage is surprised
            by this finding and thought the requirement to provide additional information had passed. However,
            SWBC Mortgage would be happy to provide a response at this time. Based on a review of the file, SWBC
            Mortgage agrees that this should have been issued as a manual downgrade; however, this loan was
            processed prior to the underwriting processes and pre-closing quality control measures currently in place.




                                                      17
            FINDING

            SWBC MORTGAGE'S INTERNAL CONTROLS NEEDED IMPROVEMENT

            All of the deficiencies identified during our review occurred because the lender’s internal controls needed
            improvement. The lender did not always follow HUD's TOTAL Mortgage Scorecard User Guide and the
            Desktop Underwriter Findings instructions. In addition, its quality control process needed strengthening
            because (1) its quality control contractor reviewed but did not detect the ineligible loan and (2) a quality
            control recommendation on another loan was not followed. Lenders must design quality control programs
            that meet the following overriding goals of quality control: “assure compliance with FHA’s and the
            mortgagee’s own origination or servicing requirements throughout its operations, protect the mortgagee and
            FHA from unacceptable risk, guard against errors, omissions and fraud, and assure swift and appropriate
            corrective action.” Since the lender did not always follow HUD's TOTAL Mortgage Scorecard User Guide,
            the Desktop Underwriter Findings instructions, and its quality controls, its internal controls were weakened,
            which allowed deficiencies to occur.

            Response to the Finding: SWBC Mortgage utilizes a nationally known vendor that has been in business
            for over 25 years and provides quality control services on behalf of 500 clients, 6 of which are top 10
            lenders. SWBC Mortgage has been in contact with this vendor and we have been assured that preventative
            measures have been added to prevent this type of oversight in the future.

            In response to a quality control recommendation not being followed, the quality control vendor noted a
            possible issue with the occupancy. The vendor was able to verify active service with the City of San
            Antonio Water System; however, the account was in a different name than the borrower. If the vendor
            notes a possible issue with the occupancy, SWBC Mortgage's Compliance Department (the “Compliance
            Department”) will attempt to confirm occupancy prior to ordering a full occupancy inspection. In this case,
            the vendor noted a utility service account that was in a name other than the borrower’s. The borrower and
            spouse do not share the same last name, so it is possible the account was in the name of the non-borrower
Comment 4   spouse. During a subsequent review, the Compliance Department was able to locate a directory assistance
            listing for the borrower at the subject property address. The Compliance Department also rescored the loan
            through our fraud detection vendor and all credit bureaus showed the borrower linked to the subject
            property address. Consequently, while the vendor recommended that SWBC Mortgage conduct an
            occupancy inspection, the Compliance Department was able to verify the borrower's occupancy through
            other means described above.

            FINDING

            Conclusion

            The lender did not follow HUD-FHA underwriting requirements in 1 of 10 loans reviewed. Seven loans
            contained minor documentation deficiencies that did not affect loan approval. Additionally, the lender did
            not provide documentation to show that it followed a recommendation from its quality control contractor.
            These deficiencies occurred because the lender's internal controls needed improvement. As a result, the
            lender originated one ineligible loan totaling $176,739 that resulted in an increased risk of loss of an
            estimated $115,654 to the insurance fund. Further, while the minor deficiencies did not affect loan
            approval, the lender placed itself at risk of originating additional ineligible loans.




                                                      18
            Response to the Finding: SWBC Mortgage agrees with the auditor’s findings that in all cases the minor
            deficiencies did not affect loan approval. While these may have been technical deficiencies, adequate
            documentation to support the decision was in the file in all cases. Regarding other loans referenced in this
            report, SWBC Mortgage believes that the pre-closing processes and internal control measures put into place
Comment 5   between the October 1, 2009 to September 30, 2011 audit period and the time of this Report have greatly
            improved mitigation of risk of these types of issues.

            SWBC Mortgage has carefully considered the findings and recommendations as set forth in the Report and
            is committed to taking appropriate action to address any deficiencies. The Company is further committed
            to serving the needs of consumers and complying with all HUD regulations. SWBC Mortgage has
            continued to recognize the need for stronger compliance controls and risk assessment and within the last
            three years has hired three key members of the executive management team: (l) Vice President,
            Compliance; (2) Executive Vice President, Risk and Operations; and (3) General Counsel. Additionally,
            SWBC Mortgage endeavors to monitor underwriting performance and provide ongoing training to
            employees on the issue of credit analysis.

            SWBC Mortgage appreciates the guidance provided by your office as we continue to strive and improve
            internal control processes and looks forward to a continued dialogue with HUD. We believe SWBC
            Mortgage’s emphasis on the importance of compliance is evident based on the OIG representatives’
            compliments to our staff regarding the extreme efficiency and ability to provide quality information in a
            timely manner. The OIG representatives were satisfied with their findings and subsequently decided to
            discontinue the audit after reviewing 10 of the 25 files selected for review.

            If you have any questions or need additional information, please do not hesitate to contact the undersigned
            at (210) 581-1539.

            Sincerely,




            Karen A. Thomason
            Vice President, Quality Control and Compliance




                                                      19
                         OIG Evaluation of Auditee Comments

Comment 1   The lender agreed that it should have inquired further about debt that was not
            considered in loan approval, but argued that since the undisclosed debt was not on
            the credit report, the borrower was not legally obligated by the creditors to pay the
            debt. We respectfully disagree with the lender. The unconsidered debt was
            itemized in a divorce decree issued by the 250th Judicial District in Travis
            County, TX, prior to loan origination and was included in the loan file.
            Therefore, the borrower was legally obligated to pay the debt. We did not change
            the report.

Comment 2   The lender provided additional documentation for four loans to show that
            documents in the loan files were the most recent available to support income and
            assets. We reviewed the documentation, and removed the citations for the four
            loans from the final report. For one loan removed from the report, the lender
            stated that the loan application date was September 17, 2010, the pay stub was
            dated October 15, 2010, and the bank statement and retirement account statement
            provided were dated September, 2009. All documentation related to this loan was
            dated 2009; thus, the dates in the lender’s response were incorrect.

Comment 3   The lender stated that it was surprised by the OIG finding that one loan should
            have been manually underwritten. However, it agreed with our conclusions. We
            respectfully disagree that the lender was unaware as we notified it of this
            deficiency on January 23, 2012, but did not receive a response addressing the
            issue.

Comment 4   The lender stated that while it did not follow its quality control contractor’s
            recommendation to perform an occupancy inspection, it was able to confirm
            occupancy through directory assistance and through a rescoring of the loan
            through its fraud detection vendor. The lender provided a screen print of the
            directory assistance search. However, there is no date to show when this search
            occurred. In addition, the lender was unable to provide documentation to show
            that it had rescored the loan through its fraud vendor at the time of the quality
            control contractor’s recommendation. Further, a search of Lexis Nexis revealed
            that the borrower did not have a driver’s license registered to the subject property.
            We did not change the report.

Comment 5   The lender stated that it has implemented pre-closing processes and additional
            internal control measures since the audit period which has improved mitigation of
            risk for the issues discussed in the audit report. We acknowledge its actions.




                                             20
Appendix C

                                              Case Narrative

                                        Case Narrative – 495-8477110

Mortgage amount: $176,739

Date of loan closing: October 8, 2009

Status as of February 29, 2012: 20 months delinquent

Payments before first default reported: Zero

Underwriting deficiencies: The lender did not include all of the borrower’s debt when it ran the
borrower’s data through the Desktop Underwriter automated underwriting system.

Summary:
All Debt Was Not Considered in Loan Approval
Desktop Underwriter approved the loan with $1,348 in monthly debt. However, we identified
six accounts on the borrower’s divorce decree with balances totaling $21,800 that were not
considered by Desktop Underwriter. The divorce decree included a seventh account for a
vehicle, which also wasn’t considered by Desktop Underwriter. The divorce decree did not
include a balance, but the borrower told us that his monthly payment was more than $600 for the
vehicle. In addition, one of the loan applications in the loan file included a $100 per month child
support payment that was not considered by Desktop Underwriter. The borrower confirmed that
he paid $100 per month in child support for his disabled son and would pay this amount for the
remainder of his life.

The Desktop Underwriter Findings stated, “When a debt or obligation is revealed during the
application process that was not listed on the loan application and/or credit report that was not
considered by Desktop Underwriter, verify the monthly payment amount. If the increased
amount is outside of tolerances, 15 include the debt in the qualifying ratios and resubmit the loan
case file.” There was no documentation in the loan file to show that the lender verified the
monthly payment amount for the debt listed on the borrower’s divorce decree, and there was no
documentation in the loan file to show that the lender included the additional debt in the ratio
calculations.




15
     The TOTAL Mortgage Scorecard User Guide states that when a debt or obligation is revealed during the
     application process that was not listed on the loan application and/or credit report and was not considered by the
     automated underwriting system, the lender must (1) verify the actual monthly payment amount, (2) include the
     monthly payment amount and resubmit the loan if the liability is greater than $100 per month, and (3) determine
     that any funds borrowed were not or will not be used for the home buyer’s cash investment into the transaction.


                                                          21
